RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-1009
DAVID SHINN, et al.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Collin P. Wedel, certify that
the Brief of the Innocence Network as Amicus Curiae in Support of Respondents in
the foregoing case contains 4,200 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 20, 2021.
/s/ Collin P. Wedel
COLLIN P. WEDEL
SIDLEY AUSTIN LLP
555 West Fifth Street
Suite 4000
Los Angeles, CA 90013
(213) 896-6000

